         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Evaluation Report


       Independent Sampling Generally
       Confirms EPA’s Data at the
       Jones Sanitation Superfund Site
       in New York

       Report No. 09-P-0243

       September 23, 2009
Report Contributors:                               Carolyn Copper
                                                   Patrick Milligan
                                                   Jayne Lilienfeld-Jones
                                                   Martha Chang
                                                   Kathryn Hess
                                                   Denise Rice




Abbreviations

EPA            U.S. Environmental Protection Agency
OIG            Office of Inspector General
NYSDOH         New York State Department of Health
NYSWQS         New York State Water Quality Standard
ROD            Record of Decision
Site           Jones Sanitation Superfund Site
VOCs           Volatile Organic Compounds




Cover photo:     A stream runs along the southeast side of capped area at the Jones Sanitation
                 Superfund Site (photo by EPA OIG).
                                                                                                           09-P-0243
                       U.S. Environmental Protection Agency                                        September 23, 2009
                       Office of Inspector General


                       At a Glance
                                                                            Catalyst for Improving the Environment


Why We Did This Review            Independent Sampling Generally Confirms EPA’s Data
The Office of Inspector           at the Jones Sanitation Superfund Site in New York
General (OIG) is testing
long-term monitoring results       What We Found
at Superfund sites the U.S.
Environmental Protection          In April 2008, the OIG obtained groundwater and surface water samples from the
Agency (EPA) has deleted          Jones Sanitation Superfund Site and nearby areas, and conducted a site inspection.
from the National Priorities      Our independent sampling results were generally consistent with the sampling
List. Jones Sanitation, located   data that Region 2 has obtained historically. In addition, our site inspection
in Hyde Park, New York, is        showed the Site was properly maintained and secured, and is consistent with
one of eight sites being          information Region 2 has obtained on the Site conditions.
reviewed.
                                  Of the 113 chemical compounds that could be compared, Region 2 and OIG
Background                        sampling results differed for only 11 compounds. OIG results for 7 of those 11
                                  compounds exceeded applicable health standards. However, four of these seven
Jones Sanitation received and     compounds were contained within the Site boundaries and were, therefore,
treated septic and industrial     controlled by the remedy. In another case, a compound (lead) is not likely to have
wastes containing hazardous       originated from the Site. Only sodium and nickel were found to exceed standards
substances. Remedial actions      in the residential wells or potentially migrate off-site at levels above standards.
included consolidating and        Region 2 did not document a concern with these but concluded that the Site
capping hazardous wastes.         remedy remains protective to human health and the environment. Due to
The Site was added to the         limitations in the Region’s off-site monitoring activities, the Region needs to
National Priorities List in       better document the rationale for its conclusions.
1987 and was deleted 18 years
later in 2005. Deletion           Region 2’s lack of monitoring to determine whether nickel exceedances in the
signifies that EPA determined     boundary monitoring well may be migrating off-site limits its ability to rule out
that clean-up goals had been      the possible off-site migration of nickel exceedances. The Region’s
achieved.                         discontinuation of other off-site monitoring also limits its conclusions that sodium
                                  exceedances have no implications for the protectiveness of the Site remedy.

                                   What We Recommend
For further information,
contact our Office of             We recommend that the Region 2 Regional Administrator demonstrate and
Congressional, Public Affairs     document in an Addendum to the 2006 Five-Year Review that off-site migration
and Management at
(202) 566-2391.                   of sodium, nickel, and any other compounds exceeding applicable standards are
                                  controlled at the Site. We also recommend that the Region modify and/or
To view the full report,          re-initiate some off-site monitoring if the Region determines it is needed to
click on the following link:      adequately support determinations of Site protectiveness. In its response to the
www.epa.gov/oig/reports/2009/
20090923-09-P-0243.pdf
                                  draft report, EPA agreed with both of our recommendations and its proposed
                                  corrective actions should address our recommendations.
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460


                                                                                            OFFICE OF
                                                                                       INSPECTOR GENERAL


                                         September 23, 2009

MEMORANDUM

SUBJECT:                Independent Sampling Generally Confirms EPA’s Data at the
                        Jones Sanitation Superfund Site in New York
                        Report No. 09-P-0243


FROM:                   Wade T. Najjum
                        Assistant Inspector General
                        Office of Program Evaluation

TO:                     George Pavlou
                        Acting Regional Administrator, Region 2


This is our report on the subject evaluation conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains the findings from our
sampling at the Jones Sanitation Superfund Site and corrective actions the OIG recommends.
EPA Region 2 concurred with and provided comments on the recommendations of the draft
report. This report represents the opinion of the OIG and does not necessarily represent the final
EPA position. Final determinations on matters in this report will be made by EPA managers in
accordance with established resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time, then adding in the contractor costs –
is $568,898.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective action plan for agreed upon
actions, including milestone dates. We have no objections to the further release of this report to
the public. This report will be available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Carolyn Copper,
Director for Program Evaluation, Hazardous Waste Issues, at (202) 566-0829 or
copper.carolyn@epa.gov; or Patrick Milligan, Project Manager, at (215) 814-2326 or
milligan.patrick@epa.gov.
Independent Sampling Generally Confirms EPA’s Data                                                                               09-P-0243
at the Jones Sanitation Superfund Site in New York




                                      Table of Contents
   Purpose........................................................................................................................      1

   Background .................................................................................................................         1

   Noteworthy Achievements .........................................................................................                    1

   Scope and Methodology.............................................................................................                   2

   Results .........................................................................................................................    2

   Conclusions.................................................................................................................         4

   Recommendations ......................................................................................................               5

   EPA Region 2 Response and OIG Evaluation ..........................................................                                  5

   Status of Recommendations and Potential Monetary Benefits..............................                                             6



Appendices
   A       Details on Sampling Methodology and Data Analyses...................................                                        7

   B       Compounds Exceeding Applicable Standards................................................                                    9

   C       EPA Region 2 Response to Draft Report .........................................................                             10

   D       Distribution .........................................................................................................      12
                                                                                         09-P-0243


Purpose
The Office of Inspector General (OIG) of the U.S. Environmental Protection Agency (EPA) is
evaluating long-term monitoring at Superfund sites deleted from the National Priorities List.
This is being done to ensure EPA has valid and reliable data on the conditions of these sites.
Jones Sanitation Superfund Site in Hyde Park, New York, is one of eight sites being reviewed.
To determine this at Jones Sanitation, we collected groundwater samples and compared our
results to historical results collected by the Site’s responsible party, which are used by EPA to
make a protectiveness determination. We also compared results to applicable federal and State
standards, collected surface water samples, and conducted a site inspection.

Background
From approximately 1956 to 1990, Jones Sanitation received and treated septic and industrial
wastes containing hazardous substances. The 57-acre Site has rolling and forested terrain with
wetlands surrounding the property to the north, south, and west. The Site is located
approximately 2 miles east of the Hudson River. Shallow groundwater flows from the Site’s
central disposal area toward the wetlands and surface water streams, which discharge to the
Hudson River. The Site is used commercially but the surrounding area includes both residential
and undeveloped land.

Monitoring wells were installed on-site to monitor the quality and flow of the groundwater.
Pre-existing and off-site residential drinking water wells in the proximity of the Site were
monitored to ensure that Site-related contaminants were not impacting the local drinking water
sources. During the first year of long-term monitoring, on-site monitoring wells were sampled
quarterly and off-site residential wells were sampled annually. In later years, in accordance with
the Site’s Record of Decision (ROD), the on-site sampling frequency was reduced to an annual
event. EPA Region 2 deleted the Site from the National Priorities List in September 2005
because the Region determined that responsible parties or other parties have implemented all
appropriate response actions required and the Site does not pose a significant threat to public
health or the environment. In 2006, Region 2 concluded during its Five-Year Review that the
remedy continued to protect human health and the environment.

Noteworthy Achievements
Remedial construction was completed in 2001. Soils contaminated at levels above clean-up
goals were excavated and moved to a central disposal area where a 4.8-acre cap was constructed
over the contaminants. The capped area was fenced to limit access. A deed restriction was
implemented that prohibits use of groundwater underlying the Site. An environmental easement
also was put in place to prohibit development on the capped area. A long-term groundwater
monitoring program was developed to monitor the effectiveness of the remedy in preventing
off-site migration of the contaminated groundwater. Region 2 completed the first Five-Year
Review for the Site in 2006 as required by statute.




                                                 1
                                                                                          09-P-0243


Scope and Methodology

We conducted our work from March 2008 to September 2009 in accordance with generally
accepted government auditing standards. Those standards require that we plan and perform the
evaluation to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our evaluation objectives. We reviewed key historic
documents, including past sampling results and decision documents, such as the ROD and Five-
Year Review. We also interviewed the project managers from Region 2 and the New York State
Department of Environmental Conservation. We collected groundwater and surface water
samples and conducted a limited site inspection.

We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our evaluation objectives. This report summarizes OIG’s comparison of
our Site data to Region 2’s historical Site data and to applicable federal and State standards. This
report also compares OIG’s observations during the site inspection with historical observations
reported to EPA by the Site’s responsible party.

For this review, we acquired a qualified environmental contractor to take water samples and
conduct a site inspection. The contractor collected samples from 10 on-site monitoring wells,
3 off-site residential wells, and 4 surface water locations. OIG staff members were present to
ensure that proper sampling and site inspection quality assurance protocols were followed. We
analyzed our sampling data from the Site to determine whether Region 2 has been obtaining
valid and reliable data on the conditions at the Site. We also evaluated our results in the context
of applicable standards and their potential effect on Region 2’s protectiveness determination for
the Site. Details on our sampling methodology and data analyses are in Appendix A. OIG
sampling results that relate to issues discussed in this report are in Appendix B.

We plan to report additional findings on issues beyond the results of our sampling analysis from
all or some of the eight sites we evaluated. The summary report may include additional findings
from Jones Sanitation.

A draft of this report was sent to the Acting Region 2 Administrator on September 3, 2009, and
we received comments from Region 2 on September 17, 2009. Region 2’s written comments to
the draft report are in Appendix C.

Results
OIG’s independent sampling and analyses generally confirm Region 2’s data at the Jones
Sanitation Superfund Site. Out of more than 100 compounds analyzed, 11 were found to have
real differences from historical data. OIG results greater than two standard deviations above
average historical concentrations were deemed to have real differences from the historical data.
In addition, seven exceeded applicable standards. Four of these seven compounds exceeding
standards were contained within the Site boundaries and, therefore, controlled by the remedy.
Two compounds – sodium and nickel – exceeded applicable standards in the off-site or boundary
wells. Off-site monitoring had been limited in scope and was subsequently discontinued. We



                                                 2
                                                                                            09-P-0243


did not find any documentation regarding nickel and sodium exceedances, and whether there was
an impact on the protectiveness of the remedy.

Groundwater

Our sampling results were generally consistent with Region 2’s historical results. Out of the 113
compounds for which EPA had sufficient data to compare, we identified 11 compounds that had
different concentrations from historical results (see Table 1, Part A). Eight of these either had no
standards or were detected at concentrations that were below applicable health standards.
Concentrations of the other
three compounds –
manganese, sodium, and              Table 1 – Summary of Data Differences and OIG Results that
                                                         Exceeded Standards
lead – were different from
                                 Part A – OIG Groundwater Results Compared to Region 2 Data
Region 2’s historical data
                                 • 113 Compounds with historical data available for comparison:
and exceeded applicable
standards. In addition, four              • 102 Compounds without Real Differences (Not Listed)
other compounds – benzene,                • 11 Compounds with Real Differences:
chlorobenzene, iron and                      • 8 Detected without or below Standards
                                                  (Acetone, Calcium, Chloroform, Copper, Magnesium,
nickel – had groundwater                          Methyl tert-butyl ether, Potassium, Zinc)
concentrations above                         • 3 Detected above Standards – Further evaluated below
applicable standards,                             (Manganese, Sodium, Lead)
although our results were        Part B – OIG Groundwater Results Compared to Standards
similar to the historical        • 120 Compounds Analyzed by OIG:
data (see Table 1, Part B).              • 113 Compounds detected below relevant standards
                                             (Not Listed)
                                         • 7 Compounds exceeded relevant standards:
Manganese, benzene,
                                             • 3 Compounds also found to be different from historical
chlorobenzene and iron                         data - from above
concentrations exceeded                            (Lead, Manganese, Sodium)
standards, but were only                     • 4 Compounds found to be similar to historical data
detected within the interior                       (Iron, Benzene, Chlorobenzene, Nickel)
of the Site near the cap.          Source: OIG sampling data and analyses
The off-Site residential and
on-Site monitoring wells located along the Site boundary indicated that the levels of these
compounds were below standards. Historical results for these off-site residential and on-site
boundary wells were consistent with OIG results. Under Region 2’s definition of protectiveness
for the Site, these on-site exceedances are not a concern.

Sodium exceeded the New York State groundwater standard at several locations, including the
three off-site residential wells. Sodium exceedances had also been reported historically.
Although Region 2 reports in its 2006 Five-Year Review that sodium at and around the Site is
due to natural background levels, OIG and historical concentrations were greater than the
background levels. The OIG notified the affected residents, Region 2 staff, and staff at the New
York State Department of Health of the sodium exceedance.

Lead exceeded the federal drinking water standard at one off-site residential well. Lead was not
detected in the on-site groundwater monitoring well located between the capped area and the
residence. As a result, the lead exceedance at the residence may not be associated with the Site


                                                 3
                                                                                        09-P-0243


and may be attributed to lead material in the residential plumbing. We informed Region 2 of the
lead exceedance and Region 2 notified the affected residents.

Nickel consistently exceeded the New York State groundwater standard at a Site boundary well
in both OIG and historical samples. In the 2006 Five-Year Review, Region 2 cited past nickel
exceedances at an on-site boundary well but did not address the likelihood of nickel migrating
off the Site at concentrations exceeding the standard. If nickel is migrating off-site at levels
above the standard, it may negatively impact the Region’s current protectiveness determination
for the Site remedy.

In 2007, EPA discontinued off-site sampling because it claimed data indicated that contaminants
had not migrated off-site in the past. Based on the sodium and nickel exceedances, we believe
Region 2 should reassess whether its decision to discontinue off-site monitoring was appropriate
and additional or modified off-site sampling is needed. On-site monitoring alone provides
limited assurance that contaminants are not migrating off-site. That is particularly true when
on-site boundary wells have consistently shown exceedances.

Surface Water

Our results for surface water did not exceed any of the applicable surface water standards. If
contaminated groundwater was discharging to on-site streams, our sampling indicated that the
magnitude of the discharge was not great enough to be detected above standards.

Site Inspection

We observed in April 2008 that the area over the cap was well maintained. The landfill cover
showed no signs of erosion, cracking, or stress. The chain link fence surrounding the cap was
intact with a warning sign in place. Our observations were consistent with the historical
observations reported to Region 2 by the Site’s responsible party.

Conclusions
Our independent sampling results were generally consistent with the sampling data that Region 2
has obtained historically. Two compounds (sodium and nickel) have historically exceeded
standards off-site or at the Site boundary. The Region has limited and discontinued off-site
monitoring. In addition, the Region has not sufficiently documented its conclusions that these
exceedances have no adverse implications for the remedy’s protectiveness. The Region’s
conclusion that the Site remedy remains protective of human health and the environment will be
better supported and transparent by evaluating and documenting the implications of these
exceedances and the potential need for changes or modifications in off-site monitoring activities.




                                                4
                                                                                      09-P-0243


Recommendations
We recommend that the Region 2 Regional Administrator:

   1. Demonstrate and document in an Addendum to the 2006 Five-Year Review that off-site
      migration of sodium, nickel, and any other compounds exceeding applicable standards
      are controlled at the Site.

   2. Modify and/or re-initiate some off-site monitoring if the Region determines it is needed
      to adequately support determinations of Site protectiveness.

EPA Region 2 Response and OIG Evaluation
Region 2 agreed with both OIG recommendations and its proposed corrective actions should
address our recommendations. Appendix C provides the full text of the Region’s comments.

Regarding Recommendation 1, Region 2 agrees and stated it will issue an Addendum to the 2006
Five-Year Review within 90 days. This Addendum will clarify that site-related contaminants are
controlled at the Site and that the remedy remains protective of human health and the
environment, even though concentrations of nickel in one monitoring well exceed the New York
State water quality standards for groundwater, and concentrations of sodium in some wells
exceed levels intended to protect people on severely restricted sodium diets.

Regarding Recommendation 2, Region 2 concurs and will continue to evaluate its monitoring
program at the Site. If the Region determines that the monitoring program needs to be modified
to support determinations of Site protectiveness, it will take appropriate action at that time.




                                               5
                                                                                                                                       09-P-0243



                             .   Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                             POTENTIAL MONETARY
                                                     RECOMMENDATIONS                                                          BENEFITS (in $000s)

                                                                                                                 Planned
    Rec.    Page                                                                                                Completion   Claimed    Agreed To
    No.      No.                          Subject                           Status1       Action Official          Date      Amount      Amount

     1        5     Demonstrate and document in an Addendum to the            O       Regional Administrator,
                    2006 Five-Year Review that off-site migration of                        Region 2
                    sodium, nickel, and any other compounds
                    exceeding applicable standards are controlled at
                    the Site.

     2        5     Modify and/or re-initiate some off-site monitoring if     O       Regional Administrator,
                    the Region determines it is needed to adequately                        Region 2
                    support determinations of Site protectiveness.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                                  6
                                                                                        09-P-0243


                                                                                    Appendix A

                  Details on Sampling Methodology
                          and Data Analyses

Sampling Methodology
We acquired a qualified environmental contractor from the list of General Services
Administration contractors to take water samples and conduct a site inspection. During
April 21-24, 2008, our contractor collected samples from 10 on-site monitoring wells, 3 off-site
residential wells, and 4 surface water locations. The samples were analyzed for volatile organic
compounds (VOCs) and metals at a qualified laboratory using EPA-approved methods. Surface
water samples were also analyzed for nutrients. OIG staff members were present to ensure that
proper sampling and site inspection quality assurance protocols were followed.

Groundwater Monitoring Wells

We sampled 10 on-site monitoring wells that are part of the annual monitoring at the Site. We
followed the same sampling methods and protocols used in the Site’s long-term monitoring
program. We collected two sets of sample bottles from each well: one for our laboratory
analysis and the other for purposes of quality assurance. VOC samples were collected first,
followed by the total and dissolved metals samples.

Residential Drinking Water Wells

We sampled three off-site residential wells to determine any groundwater impact from the Site.
In taking our samples, we followed the same protocols used in long-term monitoring. One set of
sample bottles was collected for laboratory analysis. For two of the residences, we collected
samples from the hose bibs closest to the well heads. We collected the third residential well
sample from a kitchen faucet connected to a very small public drinking water system. Our
sample collection points were consistent with historical collection points. Residential well
samples were analyzed for VOCs and total metals. Due to the scope of the OIG evaluation, we
did not analyze for all contaminants recommended for drinking water monitoring.

Surface Water Locations

We collected four surface water samples to determine whether contaminated groundwater was
discharging to surface water. If our sampling results showed that surface water was
contaminated, the Region would need to consider regularly sampling surface water to fully
evaluate conditions at the Site. Historically, surface water sampling had not been part of the
long-term monitoring program. As a result, a site-specific protocol for surface water sampling at
this Site has not been established. We used generally accepted surface water sampling methods
appropriate for initial screening of Site conditions. We collected samples by dipping a clean
vessel into the center of the stream. In addition to VOCs and total metals, the surface water
samples were assessed for three nutrients (nitrite, nitrate, and sulfate). A total of four surface


                                                7
                                                                                         09-P-0243


water samples were collected from the two on-site streams – two were taken within the Site near
the capped disposal area and two where the streams leave the Site.

Data Analyses
We analyzed our sampling data from the Site to determine whether Region 2 has been obtaining
valid and reliable data on the conditions at the Site. First, we compared our results to historical
data spanning back to 2002 to determine whether our data was consistent with data Region 2 has
been receiving from the Site’s responsible party. OIG results greater than two standard
deviations above average historical concentrations were deemed to have real differences from the
historical data. We did not conduct an evaluation of the reasons for these differences.

We also evaluated our results in the context of applicable standards and their potential effect on
Region 2’s protectiveness determination for the Site. This required us to identify all OIG results
that exceeded applicable standards as listed in the ROD. We compared our groundwater
sampling results to federal drinking water and New York State groundwater standards,
whichever was more stringent. Our approach and selection of applicable standards was fully
consistent with the same standards applied by EPA. We also compared our surface water results
to New York State surface water standards, as Region 2 had done prior to the Site remediation.
Region 2 did not require surface water samples or specify the use of any surface water standards
in the ROD because substantial contaminant concentrations had not been found in the surface
water prior to remediation. Contaminant concentrations detected below applicable standards are
not a concern because they do not adversely affect Region 2’s protectiveness determination.
Also, contaminant levels above standards but within the Site boundaries are not a concern,
provided the contaminants are not migrating off-site at levels above the standards. This is
consistent with the Region’s definition of Site protectiveness, as stated in the ROD.




                                                8
                                                                                        09-P-0243


                                                                                     Appendix B

          Compounds Exceeding Applicable Standards
       Analyzed                                                                      Applicable
      Compound             Sampling Location          Compound State   OIG Results    Standard
                               JSMW-3A                   Dissolved        0.88
                             (Interior Well)               Total          0.98
                                 JSMW-3B                 Dissolved         1.4
      Manganese                (Interior Well)             Total           1.6
                                                                                      0.3 mg/L1
        (mg/L)                   JSMW-8A                 Dissolved         1.7
                               (Interior Well)             Total          1.53
                                 JSMW-8B                 Dissolved         1.4
                               (Interior Well)             Total           1.3
                                32 Cardinal
                                                             Total         38
                             (Residential Well)
                                74 Cardinal
                                                             Total         32
                             (Residential Well)
                                Valkill Lot #2
                                                             Total         30
        Sodium               (Residential Well)                                                  1
                                 JSMW-6B                   Dissolved       98         20 mg/L
        (mg/L)
                              (Boundary Well)                Total         98
                                 JSMW-8A                   Dissolved      24.2
                               (Interior Well)               Total         25
                                 JSMW-8B                   Dissolved      57.5
                               (Interior Well)               Total        53.5
         Lead                   32 Cardinal                                                          2
                                                             Total        0.043      0.015 mg/L
        (mg/L)               (Residential Well)
                                 JSMW-3B
                                                                          1.72
       Benzene                 (Interior Well)                                               1
                                                              ---                      1 ug/L
        (ug/L)                   JSMW-8A
                                                                          1.13
                               (Interior Well)
                                 JSMW-3B
                                                                          13.4
    Chlorobenzene              (Interior Well)
                                                              ---                      5 ug/L1
        (ug/L)                   JSMW-8A
                                                                          12.2
                               (Interior Well)
                                 JSMW-3A                   Dissolved      25.7
                               (Interior Well)               Total        29.2
                                 JSMW-3B                   Dissolved       5.4
         Iron                  (Interior Well)               Total         6.1
                                                                                      0.3 mg/L1
        (mg/L)                   JSMW-8A                   Dissolved      6.04
                               (Interior Well)               Total        7.11
                                 JSMW-8B                   Dissolved       2.5
                               (Interior Well)               Total         3.4
        Nickel                  JSMW-6B                    Dissolved      0.54
                                                                                      0.1 mg/L1
        (mg/L)               (Boundary Well)                 Total        0.72
1
    New York State Groundwater Standard
2
    Federal Drinking Water Maximum Contaminant Level or Action Level

mg/L: milligrams per liter
ug/L: micrograms per liter

Source: OIG sampling data and analyses




                                                       9
                                                                                       09-P-0243


                                                                                   Appendix C

             EPA Region 2 Response to Draft Report

                   UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                       REGION 2



  DATE:    September 17, 2009

SUBJECT:   Region 2 Comments on OIG Draft Evaluation Report - Jones Sanitation

  FROM:    George Pavlou /s/
           Acting Regional Administrator

    TO:    Carolyn Copper
           Office of Inspector General

           EPA Region 2 welcomes the opportunity to comment on the Office of the Inspector
           General’s Draft Evaluation Report on the Jones Sanitation Superfund site.

           Region 2’s responses to the two recommendations in the draft report are as follows:

           OIG Recommendation #1

           "We recommend that the Region 2 Regional Administrator demonstrate and
           document in an Addendum to the 2006 Five-Year Review that off-site migration of
           sodium, nickel, and any other compounds exceeding applicable standards are
           controlled at the Site.”

           Region 2 Response

           Region 2 concurs; Region 2 will issue an Addendum to the 2006 Five-Year Review
           within 90 days. This Addendum will clarify that site-related contaminants are
           controlled at the site and that the remedy remains protective of human health and the
           environment, even though concentrations of nickel in one monitoring well (site
           boundary well JSMW-6B) exceed the New York State water quality standards for
           groundwater (NYSWQS) for nickel, and concentrations of sodium in some wells
           exceed levels intended to protect people on severely restricted sodium diets.

           The 2006 Five-Year Review correctly states that site-related contaminants are
           controlled at the site and that the remedy is protective. However, a reference to the
           presence of nickel above the NYSWQS, albeit in one well, is written in a manner that
           could lead the reader to question whether the remedy is in fact protective. The
           Addendum will clearly explain that although nickel is found at one boundary well


                                               10
                                                                              09-P-0243


above the NYSWQS, the nickel concentrations found in this well, and all other on-
site wells sampled since 2003, have been below human health risk based criteria.
This one well has historically had levels of nickel above the NYSWQS, and there is
some thought that these higher levels may be due to deterioration of the well screen.
Nickel has never been found in any of the residential wells above the NYSWQS or
health based levels. There are no Federal or New York State drinking water
standards for nickel.

The Addendum will also better explain the relevance of the sodium concentrations
that have been found in and around the site, even though sodium is present above the
NYSWQS.

New York State standards for maximum levels of contaminants in drinking water
supplies specify that there are “no designated limits” for sodium in drinking water.
The regulation does state “Water containing more than 20 mg/L of sodium should not
be used for drinking by people on severely restricted sodium diets. Water containing
more than 270 mg/L should not be used for drinking by people on moderately
restricted sodium diets.” Sodium is often found throughout the area, including areas
upgradient and downgradient of the site, at concentrations above the 20 mg/L yet
below the 270 mg/L advisory levels. The New York State Department of Health
(NYSDOH) has notified residents whose homes have concentrations of sodium above
20 mg/L, that they should not drink this water if they are on severely restricted
sodium diets. NYSDOH agrees with EPA that the sodium present in these wells is
not related to the site.

OIG Recommendation #2

"We recommend that the Region 2 Regional Administrator modify and/or re-initiate
some off-site monitoring if the Region determines it is needed to adequately support
determinations of site protectiveness.”

Region 2 Response

Region 2 concurs; Region 2 will continue to evaluate our monitoring program at the
site, and if we determine that it needs to be modified to support determinations of site
protectiveness, we will do so at that time.

If you have any questions on these comments, please contact John Svec of my staff at
(212) 637-3699.




                                     11
                                                                                  09-P-0243


                                                                              Appendix D

                                    Distribution

Office of the Administrator
Assistant Administrator, Office of Solid Waste and Emergency Response
Acting Regional Administrator, Region 2
Principal Deputy Assistant Administrator, Office of Solid Waste and Emergency Response
Director, Office of Site Remediation and Innovation Technology, Office of Solid Waste
    and Emergency Response
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Audit Follow-up Coordinator, Office of Solid Waste and Emergency Response
Audit Follow-up Coordinator, Region 2
Acting Inspector General




                                            12
